OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/MADAGASCAR’S
BIOLOGICALLY DIVERSE
FOREST ECOSYSTEM
CONSERVATION PROGRAM
AUDIT REPORT NO. 4-687-08-002-P
March 14, 2008




PRETORIA, SOUTH AFRICA
Office of Inspector General


March 14, 2008

MEMORANDUM

TO:                  USAID/Madagascar, Acting Mission Director, Barbara Dickerson

FROM:                Regional Inspector General/Pretoria, Nathan S. Lokos /s/

SUBJECT:             Audit of USAID/Madagascar’s Biologically Diverse Forest Ecosystem
                     Conservation Program (Report No. 4-687-08-002-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those comments in
their entirety in appendix II.

The report includes five recommendations to strengthen USAID/Madagascar’s biologically
diverse forest ecosystem conservation projects. In response to the draft report, the mission
concurred with all five recommendations, provided plans in response to these
recommendations, and set target completion dates. Accordingly, management decisions have
been reached for all five recommendations

Please provide USAID’s Office of Audit, Performance, and Compliance Division (M/CFO/APC)
with the necessary documentation demonstrating that final action has been taken on all
recommendations.

I sincerely appreciate the cooperation and courtesy extended to my staff during this audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective.................................................................................................................. 3

Audit Findings................................................................................................................. 4

     Operational Plan Performance
     Reporting Needs Improvement ................................................................................... 7

     Source Data Need
     to Be Verified............................................................................................................... 9

     Lack of USAID Branding ........................................................................................... 10

Evaluation of Management Comments....................................................................... 12

Appendix I – Scope and Methodology ........................................................................ 13

Appendix II – Management Comments ....................................................................... 15

Appendix III – Reviewed Results ................................................................................. 19
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria, as part of the Office of Inspector General’s fiscal year
2008 audit plan, conducted this audit to determine whether USAID/Madagascar’s biologically
diverse forest ecosystem conservation projects 1 achieved planned results and to determine the
impact. (See page 3.)

Madagascar is endowed with a high level of endemism; 2 more than 80 percent of its plants and
animals are not found anywhere else in the world. Some of the endemic plants are used to treat
illnesses such as childhood leukemia, and there are numerous plant species whose benefit is
not yet known. The existence of endemic plants and animals is threatened by hundreds of
years of detrimental agricultural and other practices that have diminished the forest cover. To
address this threat, USAID/Madagascar has been working since 1991 with the Government of
Madagascar, the private sector, nongovernmental organizations, local communities, and other
donors on conservation of natural resources. (See page 2.)

Out of five project-level results the audit team reviewed, USAID/Madagascar’s biologically
diverse forest ecosystem conservation projects have achieved three planned results for fiscal
year 2007. (See page 4.) USAID/Madagascar’s contribution to the conservation of biologically
diverse forest ecosystems has resulted in a decrease in deforestation rate in Madagascar. A
satellite imaging study conducted in 2007 clearly showed a decrease of annual deforestation
rates from 0.83 percent during the 1990s to 0.53 percent from 2000 to 2005. (See page 6.)

USAID/Madagascar followed the new foreign assistance framework in reporting fiscal year 2007
results in its operational plan performance report. However, the mission’s environment and
rural development strategic objective has not updated its performance management plan to
include the operational plan indicators and relevant projects and has not conducted data quality
assessments on the indicator data. Further, data reported in the fiscal year 2007 operational
plan performance report were not verified for accuracy. In addition, some partners were not
adhering to USAID branding requirements. (See pages 7 to 11.)

This report includes five recommendations to assist USAID/Madagascar in improving its efforts
to provide proper accountability for its biologically diverse forest ecosystem conservation
projects. Specifically, USAID/Madagascar needs to (1) include the operational plan indicators
and all relevant projects applicable to operational plan reporting in its performance management
plan, (2) complete data quality assessments for the indicator data reported on the operational
plan, (3) review and correct all erroneous operational plan performance data, (4) establish
procedures requiring verification of operational plan data at the source level, and provide
training on data collection and verification methods for the environment and rural development
strategic objective team’s monitoring and evaluation staff, and (5) inform its responsible mission
staff and all of its partners of the USAID branding requirements, and implement a plan to verify
partner compliance with these requirements. (See pages 7 to 11.)

Management’s comments are included in their entirety in appendix II.


1
  USAID uses the word “activity” to describe a set of actions that use resources such as commodities, technical assistance, and
training to achieve specific operational-level results, such as vaccinations given, schools built, loans issued, and so on. This report
uses the word “project” in lieu of “activity.”
2
  Endemism means belonging exclusively to or being confined to a particular place.



                                                                                                                                     1
BACKGROUND
Madagascar has one of the most amazing biodiversities in the world. Tens of millions of
years of isolation from the African mainland have resulted in a large number of species
that are endemic to Madagascar. The first human encounter with Madagascar’s
biodiversity occurred only 2,000 years ago. Since then, much of the island’s forest—the
habitat for Madagascar's unique plant and animal species—has been destroyed.
Because 80 percent of Madagascar’s population lives in rural areas and makes its living
through subsistence agriculture, a large part of the population depends on slash-and-
burn cultivation. 3 In addition, practices such as charcoal production, mining, logging, oil
exploration, hunting, and collecting wild animals for the pet trade are detrimental to the
environment. These practices have created erosion, decreased agricultural production,
increased rural poverty, and threatened the biodiversity of the Madagascar ecosystem.

Since 1991, USAID/Madagascar has been working with the Government of Madagascar,
the private sector, nongovernmental organizations, local communities, and other donors
on conservation of natural resources by implementing the three phases of the National
Environment Action Plan. Through its strategic objective addressing the conservation of
biologically diverse forest ecosystems, the mission’s environment and rural development
strategic objective team focuses on sustainable forest ecosystems management.
Presently working in the three ecoregions of Toamasina, Fianarantsoa, and Anosy, the
program has five components based on the following approaches to ecoregional
conservation and sustainable development:

•    The existence of a strategic vision for the forest ecosystems and a plan as to how
     best to achieve that vision.
•    The establishment of core protection zones for critical biodiversity habitats, which
     fulfill the need to protect priority natural resources and ecological processes.
•    Around these core areas, the establishment of sustainable use zones that may be
     privately, publicly, or locally managed.
•    Within and outside these multiple sustainable use zones, the sustainable use and
     varying extents of managed land use.
•    An emphasis on participation, transparency, and good governance.

At the September 2003 World Parks Congress, the president of Madagascar announced
plans to triple the protected area coverage over a 5-year period to 6 million hectares.
Called “the Durban vision,” this initiative allows the creation of new protected areas to
meet the international standard of 10 percent of surface area under protected status.
Through its various projects, the mission is helping the Government of Madagascar meet
this target. The target has been extended to 2011 and is now included as part of the
new Madagascar Action Plan.

USAID/Madagascar’s environment program is funded solely by U.S. Government
biodiversity earmark funds. For fiscal year 2007, USAID/Madagascar obligated $3.9
million for the environment program area out of $6.1 million obligated for all program
areas under the biologically diverse forest ecosystem conserved strategic objective.
3
  In slash-and-burn cultivation, a portion of the forest is cut and burned for planting rice. After a year or two, the land is left
fallow. However, farmers often return to cultivating those fallow fields too quickly, thereby exhausting the soil. Eventually,
large areas of forest are transformed into wastelands, upon which nothing can grow—neither rice nor forest.



                                                                                                                                 2
Photograph of rosie periwinkle—a plant endemic to Madagascar that is used as a medicine for
childhood leukemia and other diseases. Photo taken in Madagascar by RIG/Pretoria auditor in
December 2007.



AUDIT OBJECTIVE
This audit was conducted at USAID/Madagascar as part of the Office of Inspector
General’s annual audit plan. The audit was conducted to answer the following question:

•   Did USAID/Madagascar’s biologically diverse forest ecosystem conservation activity
    achieve planned results, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         3
AUDIT FINDINGS
Out of the five project-level results reviewed, USAID/Madagascar’s                   biologically diverse forest
ecosystem conservation projects had achieved three planned results.                  (See appendix III for a list
of the reviewed results.) Furthermore, the mission’s projects of                     the past 15 years have
contributed to the overall long-term conservation of Madagascar’s                    biologically diverse forest
ecosystem.

Hectares in areas of biological significance under improved management – In fiscal year
2007, USAID/Madagascar continued to be a primary supporter in the Government of
Madagascar’s expansion of the Madagascar Protected Area System. 4 The mission’s partners
reported that they have accomplished 106 percent of their collective target of 724,423 hectares
of biological significance under improved management.

Number of policies, laws, agreements, or regulations promoting sustainable natural
resource management and conservation that are implemented as a result of USAID
intervention – The partners collectively achieved 92 policies, laws, agreements, or regulations
promoting sustainable natural resource management and conservation implemented as a result
of their intervention, which is 180 percent of the target of 51. These 92 documents included
natural resource agreements and contracts, protected area decrees based on the protected
areas code, legal orders based on forest policy, and transfer of management law. The high
degree of achievement was primarily due to one partner whose results (68) significantly
exceeded its target (18). This occurred because the partner included legally binding traditional
documents that structure indigenous systems of community-based resource management. The
inclusion of such documents was not anticipated when the target was established.

Number of people receiving training in natural resources management and/or
biodiversity conservation as a result of USAID intervention – The Government of
Madagascar’s development of managed forests included developing tender documents and
creating legally recognized structures to evaluate bids and award contracts. This led to the
adoption and distribution of a procedures manual on implementing field inventories and bids,
establishment of regional forestry commissions, and field-based training of forestry agents from
eight regions in inventory and permitting procedures. These improvements contributed to the
mission exceeding by 22 people (21 percent) the target of having 105 people receive training in
natural resources management and/or biodiversity conservation as a result of USAID
assistance.

Hectares put under improved natural resource management – This indicator tracks the
number of hectares with forestation/reforestation or improved management of government-held
plantations through the following steps: (1) identification of sites through regional forest zoning;
(2) prospecting inventory; (3) economic, social, and ecological feasibility studies; (4)
management inventory or retained areas for production forestry; (5) development of
management plan; (6) environmental assessment; (7) bidding process; and (8) award of
contracts to private sectors. Only 0.4 percent of the targeted hectares to be put under improved
natural resource management were achieved. The target was not achieved because the
Government of Madagascar hesitated to move forward with issuing a competitive permit for a
state-owned pine plantation, as well as because of the lengthy process to award contracts.

4
    The president of Madagascar has committed to tripling protected areas by 2011.



                                                                                                               4
Based on these circumstances, the mission will adjust the fiscal year 2008 target downward by
11,043 hectares.




Photograph of a reforestation nursery that is part of a carbon sequestration project.   Photo taken near
Andasibe, Madagascar, by RIG/Pretoria auditor in November 2007.

Hectares in areas of biological significance showing improved biophysical conditions –
Improved biophysical condition is considered achieved when USAID/Madagascar-supported
national parks meet three criteria: (1) devise a protocol (methodology) that specifies the
conservation targets and threats to be monitored; (2) implement the protocol at the protected
area; and (3) put in place a database and reporting system. Owing to the discovery of financial
irregularities at one of the national parks, the implementing partner that provides the data for
this indicator froze the funding for all parks it was supporting in 2006. In 2007, the partner
began supporting some, but not all, of the national parks it had previously supported in meeting
the three criteria described above. As a result, only 66 percent of the fiscal year 2007 target
was achieved. This shortfall was beyond the mission’s control, as the target for fiscal year 2007
was set with the assumption that there would be full support from the national park system.
Once the freeze on the national park system’s funding is lifted, achievement should increase.

USAID/Madagascar has contributed to the decrease of annual deforestation rate in
Madagascar.

The Government of Madagascar’s National Environmental Action Plan (NEAP), which
commenced in 1991, is supported by a broad donor coalition, which includes bilateral donors
(the United States through USAID; Germany, France, Switzerland, Japan), multilateral donors
(the Global Environment Facility, the World Bank and International Development Association,



                                                                                                      5
the United Nations Development Program), and nongovernmental organizations (the World
Wide Fund for Nature, Conservation International, the Wildlife Conservation Society).

A satellite imaging analysis conducted in 2007 shows a decrease of annual deforestation rates
from 0.83 percent during the period from 1990 to 2000 to 0.53 percent during the period from
2000 to 2005. Furthermore, this satellite imaging also revealed that:

•   For the same periods, in two of the three ecoregions where USAID/Madagascar intervenes,
    the rate had decreased: Toamasina ecoregion from 0.46 percent to 0.26 percent, and
    Fianarantsoa ecoregion from 0.84 percent to 0.17 percent.

•   Deforestation increased in the Anosy ecoregion, from 0.40 percent to 0.55 percent.
    According to the strategic objective team leader, this increase is due to the lack of USAID-
    supported complementary livelihood projects to counter threats to natural resources such as
    slash-and-burn agriculture and use of primary forest for firewood. (See figure 1.)



                        Figure 1: Annual Deforestation Rate

                1
               0.8
    P ercent




               0.6                                                          1990-2000
               0.4                                                          2000-2005
               0.2
                0
                     National   Toamasina Fianarantsoa       Anosy
                                     Ecoregions

In addition, a 2005 global forest resources assessment conducted by the Food and Agricultural
Organization of the United Nations stated that for the periods between 1990 to 2000 and 2000
to 2005, Madagascar was tied with two other countries with the second highest decrease in the
rate of deforestation out of 53 African countries.

To continue making a long-term impact on the forest cover and its environment, the mission’s
partners are working with the Government of Madagascar and other donors in projects that
support conservation of the forest corridors, such as the following:

•   Conservation of forest ecosystems through the creation of protected areas and sustainable
    production forests and the implementation of agro-forestry projects. This expands




                                                                                              6
     biodiversity habitats and maintains ecological linkages to improve carbon sequestration, 5
     which in turn addresses global climate change.

•    Comanagement of protected areas by the government and community forest associations.
     This facilitates dialog and collaboration between the communities and the government,
     promoting accountability, transparency, and good governance of natural resources.

•    A watershed management education program that increases awareness of the hydrological
     cycle and the impact that land-use decisions may have on water quality and availability.

Although the mission’s projects are achieving the aforementioned positive project-level and
impact results, the mission could improve on certain areas of its biologically diverse forest
ecosystem conservation projects, which should help the program’s efficiency and adherence to
USAID requirements. These areas are (1) improving the operational plan performance
reporting, (2) verifying data at the source level, and (3) compliance with USAID branding
requirements.

Operational Plan Performance
Reporting Needs Improvement

    Summary: The USAID Automated Directives System (ADS) requires performance
    management plans and data quality assessments for data collected for performance
    reports. The mission, however, has not updated the environment and rural development
    strategic objective performance management plan to include the operational plan
    indicators and projects, and has not completed data quality assessments. The strategic
    objective team did not take the proper measures to ensure the quality of the performance
    information in the operational plan performance report because of the short time it had to
    report on the operational plan performance data. Without a performance management
    plan and data quality assessments that addressed the biologically diverse forest
    ecosystem projects, the mission had no assurance that it had been maintaining the
    elements that are essential to the operation of a credible and useful performance-based
    management system.

Results-oriented management decisions require valid, current, and reliable information, and the
benefits of this approach depend substantially on the quality of the performance information.
Accordingly, USAID requires that performance management plans be current and the quality of
data be assessed. Specifically, USAID’s ADS section 203.3.4.6 states that “…Operating Units
should update performance management plans regularly with new performance information as
programs develop and evolve.” Similarly, ADS 203.3.5.2 states that data reported to
USAID/Washington for Government Performance and Results Act reporting purposes or for
reporting externally on Agency performance must have had data quality assessments within the
three years before submission. Reinforcing this, the Director of U.S. Foreign Assistance has
required that USAID continue to use its existing performance management system, which
includes performance management plans and the conduct of data quality assessments. 6


5
  Carbon sequestration is the removal and storage of carbon from the atmosphere into forests and other ecosystems (such as
oceans or soils) that absorb carbon through physical or biological processes, such as photosynthesis.
6
 The Office of the Director of U.S. Foreign Assistance coordinates all U.S. Government foreign assistance.



                                                                                                                        7
Despite these requirements, USAID/Madagascar has not updated its environment and rural
development strategic objective performance management plan for new or modified
performance indicators, some of which had been added or modified when the mission
incorporated standard performance indicators established by the Office of U.S. Foreign
Assistance. The mission also has not updated the performance management plan to include all
relevant projects.   Finally, although the mission has started conducting data quality
assessments for performance information reports concerning biologically diverse forest
ecosystem conservation, those data quality assessments are still at the draft stage.




Photograph of community members taking trees for planting from a nursery to a planting site in Anosy
region, Madagascar. Photo taken by a USAID/Madagascar implementing partner in 2006.

According to a mission official, mission staff had assumed that they would not have to report on
their operational plan performance until early in 2008. However, they learned in August 2007
that this reporting was actually due in November 2007. As a result, the responsible strategic
objective team did not have time to revise its performance management plan or complete the
required data quality assessments.

Without an updated performance management plan, USAID/Madagascar lacks a critical tool for
planning, managing, and documenting data collection for the biologically diverse forest
ecosystem conservation program. The absence of a plan that fully addresses this program has
left the mission without all of the elements that are essential to the operation of a credible and
useful performance-based management system. Consequently, there are some relevant
environmental conservation projects conducted by USAID partners for which all pertinent results
are not being captured.

Moreover, without conducting periodic data quality assessments that meet ADS requirements,


                                                                                                  8
the strategic objective team cannot ensure the validity and accuracy of the data reported to the
Office of the Director of U.S. Foreign Assistance.            Unreliable data can affect the
appropriateness of management decisions and the ability of managers to evaluate the
effectiveness and efficiency of their programs.

To ensure that operational plan performance reporting reflects all relevant projects and that the
data meet the required quality standards, this audit makes the following recommendations:

   Recommendation No. 1:        We recommend that USAID/Madagascar update its
   environment and rural development strategic objective performance management plan
   to include the operational plan indicators and all relevant projects applicable to
   operational plan reporting.

   Recommendation No. 2: We recommend that USAID/Madagascar complete the data
   quality assessments for operational plan indicators for its environment and rural
   development strategic objective projects.


Source Data Need
to Be Verified

  Summary: Mission staff did not verify the accuracy of the implementing partner data
  collected for the fiscal year 2007 operational plan performance report. The Standards for
  Internal Control in the Federal Government require that all transactions be completely and
  accurately recorded. Procedures were not in place to ensure the accuracy of data
  collected, and the responsible monitoring and evaluation staff were not aware of the need
  to ensure the accuracy of data collected. This resulted in erroneous data being reported
  for the fiscal year 2007 operational plan performance report—a report that gauges the
  fiscal year’s accomplishments.

Although mission environment and rural development strategic objective staff worked closely
with the implementing partners in collecting and reporting data for relevant operational plan
indicators, they did not verify the accuracy of the data collected for the fiscal year 2007
operational plan performance report.

The Standards for Internal Control in the Federal Government, issued by the U.S. Government
Accountability Office, states that all transactions need to be completely and accurately recorded.
ADS 203.3.5.3.b states that in order to determine the quality of data collected from
implementing partners, verification of data at the source should be considered—ensuring that
the data are accurate and consistent. However, adequate procedures were not in place to
ensure the accuracy of the data collected from the implementing partners, including verification
of data at the source, and the mission’s monitoring and evaluation staff were not aware of the
requirement for ensuring the accuracy of data or the importance of verifying data at the source
level.

The failure to verify data reported by implementing partners has resulted in reporting of
erroneous data for some of the performance results. For instance, for the performance indicator
“hectares put under improved natural resource management,” the mission reported 3,709
hectares—11 percent of the planned target—as achieved. However, all of the processes


                                                                                                9
necessary to classify most of these hectares as “achieved” were not complete. In addition, 61
hectares were excluded because the result achieved through a USAID global development
alliance was not included. Consequently, instead of reporting the correct number of hectares,
which was 134, an overstated figure of 3,709 hectares was reported.

To ensure that operational plan information reported by USAID/Madagascar is accurate, this
audit makes the following recommendations:

   Recommendation No 3: We recommend that USAID/Madagascar (a) recalculate the
   actual fiscal year 2007 operational plan data reported by its environment and rural
   development strategic objective team, and (b) take measures to restate these amounts
   in the operational plan database.

   Recommendation No. 4: We recommend that USAID/Madagascar’s environment and
   rural development strategic objective team (a) establish procedures requiring verification
   of operational plan data at the source level, and (b) provide training on data collection
   and verification methods for the environment and rural development strategic objective
   team’s monitoring and evaluation staff.

Lack of USAID Branding

  Summary: USAID/Madagascar’s biologically diverse forest ecosystem conservation
  projects implemented by a major USAID partner were not branded with the USAID logo.
  ADS 320 requires that USAID projects be permanently marked as U.S. assistance. This
  lack of branding occurred because the mission did not verify adherence to regulations on
  branding and marking. Consequently, the objective of USAID’s branding campaign, to
  better publicize U.S. Government foreign assistance, is not being achieved.

At the project sites of one partner the audit team visited, USAID branding policies were not
adhered to. Although the partner consistently included its own logo on all project sites, it did not
consistently include the USAID logo. At reforestation and tree-growing nursery sites, the
implementer and other donors had their logos on the project signs, but permanent USAID
markings were not included.

ADS 320.3.1 states that all USAID-funded foreign assistance must be branded through use of a
“Branding Strategy” and marked through use of a “Marking Plan.” Employees involved in
program/project implementation must ensure that USAID implementing partners communicate
that the American people are providing the assistance. Further, section 4.6 of USAID’s
standard graphics manual on branding states that marking program sites is an important part of
the Agency’s branding campaign.

The failure to post the USAID branding logo occurred because the mission did not verify
adherence to regulations on branding and markings.        This lack of emphasis impairs
achievement of the objectives of USAID branding campaign.

To ensure that the USAID branding requirement is met by all implementing partners, this audit
makes the following recommendation:

   Recommendation No. 5: We recommend that USAID/Madagascar inform its responsible


                                                                                                 10
mission staff and all of its partners of USAID’s branding requirements, and implement a
plan to verify partner compliance with those requirements.




                                                                                          11
EVALUATION OF MANAGEMENT
COMMENTS
In responding to the draft report, the mission management concurred with recommendations no.
1, 2, 3, and 5 and provided plans to implement the recommendations. For recommendation no.
4, the mission discussed the complexity and challenges in verifying data at the source level.
Nevertheless, the mission provided its plan to implement that recommendation. The mission’s
comments and our evaluation of those comments are summarized below.

In response to recommendation no. 1, the mission agreed to update its environment and rural
development strategic objective performance management plan to include the operational plan
indicators and all relevant projects applicable to operational reporting. The mission anticipates
that the revised performance management plan will be finalized and ready for review by mid-
April 2008. A management decision is reached for this recommendation.

In response to recommendation no. 2, the mission agreed to complete the data quality
assessments for the operational plan indicators for its environment and rural development
strategic objective projects. The mission plans to complete the data quality assessments by
mid-April 2008. A management decision is reached for this recommendation.

In response to recommendation no.3, the mission will recalculate the actual reported fiscal year
2007 operational plan data and plans to update the operational plan performance report
database by mid-April 2008. A management decision is reached for this recommendation.

In response to recommendation no. 4, the mission noted the complexity and challenges in
verifying data at the source level and provided examples that emphasize the difficulty in defining
the data collected. Nevertheless, the mission agreed with the need for accuracy in compiling
and reporting partner data. Accordingly, the mission plans to establish a formal procedure for
verifying data at the source level and to provide training to mission staff on data collection and
verification no later than June 2008.          A management decision is reached for this
recommendation.

In response to recommendation no. 5, the partners involved in biologically diverse forest
ecosystem conservation projects were instructed to submit their branding and marking plans by
mid-March 2008. It was also agreed that the environmental and rural development staff would
verify the implementation of this requirement as a standard part of each field visit. A
management decision is reached for this recommendation.

The mission’s comments are included in their entirety in appendix II.




                                                                                               12
                                                                                     APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with generally
accepted Government auditing standards. Fieldwork was conducted at USAID/Madagascar in
Antananarivo, Madagascar; at selected sites throughout Madagascar; and through e-mail and
telephone followup of fieldwork from November 15, 2007, through January 7, 2008.

The objective of the audit was to determine whether USAID/Madagascar’s biologically diverse
forest ecosystem conservation projects achieved planned results, and what has been the
impact. In conducting this audit, the audit team assessed the effectiveness of internal controls
related to USAID/Madagascar’s environment program under the biologically diverse forest
ecosystem conservation strategic objective.

The audit team identified pertinent controls such as (1) the mission’s managing and monitoring
the program, (2) the implementing partners’ monitoring and reporting of program status, and (3)
the mission’s annual self-assessment of internal control in accordance with the Federal
Managers Financial Integrity Act of 1982 for fiscal year 2007. We also tested internal controls
that selected partners had over their data reported to USAID/Madagascar.

The scope of this audit included USAID/Madagascar’s biologically diverse forest ecosystem
conservation projects carried out during fiscal year 2007. To test whether targets were
achieved, we reviewed pertinent documents of two biologically diverse forest ecosystem
conservation partners, amounting to 60 percent of USAID/Madagascar’s fiscal year 2007
environment and rural development strategic objective funding of $6.1 million. We conducted
11 site visits at recipient and subrecipient offices in the capital Antananarivo and various sites
throughout the country to observe projects, examine the quality of indicators, and verify data.

Methodology
To answer the audit objective, we met with USAID/Madagascar Mission staff in the biologically
diverse forest ecosystem conserved strategic objective to gain an understanding of the subject
matter. We reviewed relevant documentation produced by USAID/Madagascar, such as
cooperative agreements and contracts (including contract amendments and addendums),
mission correspondence, internally used worksheets for measuring results, the mission
performance management plan, semiannual and annual reports, and field trip and site visit
reports by mission staff to partners and subpartners.

In addition, we interviewed partner and subpartner officials responsible for biologically diverse
forest ecosystem conservation activity monitoring and implementation. We reviewed their
pertinent documents, which included but were not limited to semiannual and annual reports that
helped determine the levels of monitoring being carried out and whether progress toward
outputs had been achieved. In addition, we conducted field visits to implementing partners’
offices and ecological conservation sites to observe operations at various partner and
subpartner sites. In part, these site visits included testing data found in progress reports and
annual reports and observing program operations.




                                                                                               13
We identified higher-level results that demonstrated the impact of the mission’s contribution to
biologically diverse forest ecosystem conservation, including a study that compared the rate of
loss of forest cover between 1990 and 2000 versus 2000 to 2005. 7

To determine if targets for project results were met, we selected all the indicator results for the
environment program area of the fiscal year 2007 operational plan performance report, as it is
the program area that is directly related to the biodiversity earmark funding and is also
associated with projects that are directly related to the environmental conservation of the
Madagascar forest corridors.




7
    We reviewed these prior time periods because higher-level results were not tracked in fiscal year 2007.



                                                                                                              14
                                                                                 APPENDIX II



MANAGEMENT COMMENTS


                                       MEMORANDUM

DATE:         February 21, 2008

TO:           Nathan S. Lokos, Regional Inspector General/Pretoria

FROM:         Lisa Gaylord, Environment/Rural Development Team Leader /s/

THROUGH:      Barbara Dickerson, Acting Mission Director, USAID/Madagascar /s/

SUBJECT:      Mission comments to OIG – draft audit report No. 4-687-08-xxx-P


Please find attached the Mission response to the OIG draft audit report, issued on February 1,
2008.

We would like to thank the OIG auditors for visiting our Mission and working with us to improve
our monitoring and control system for the strategic objective “Biologically diverse forest
ecosystem conservation” program (SO6). The OIG findings and recommendations will help the
Mission put in place an improved overall program performance monitoring system.

Attached you will find our response to the draft audit report. Thank you for your time and
thoughtful recommendations. We look forward to receiving the final Audit Report.

OIG audit recommendations

Recommendation No. 1: We recommend that USAID/Madagascar update its environment and
rural development strategic objective performance management plan to include the operational
plan indicators and all relevant projects applicable to operational reporting.

USAID/Madagascar response: The Mission fully agrees with the recommendation; however it is
important to understand the background and timing in which the new operational plan common
indicators were introduced to the field by USAID/W. As indicated below, there is an approved
SO6 Performance Monitoring Plan (PMP) that has served for the last four years as a useful
performance based management system. The nineteen (19) core indicators were developed
and harmonized in close collaboration with the Government of Madagascar within the context of
the third phase of the National Environment Action Plan (EP3). These were included as part of
the Strategic Objective Agreement between USAID and the Government of Madagascar signed
in July 2003. They have served as a very critical tool for joint planning, managing, and
documenting data collection and results for both SO6 and EP3. As such, we believe these
indicators were able to capture the pertinent results under the SO6 programs and projects. The
common operational plan indicators provided by USAID/W will continue to supplement these


                                                                                            15
core indicators to further capture the breadth of the biodiversity program in Madagascar. This is
an important distinction in understanding the evolution of the performance management plan.

Background: The Environment/Rural Development (Env/RD) team developed a Performance
Monitoring Plan (PMP) for its Strategic Objective 6 (SO6), titled “Biologically Diverse
Ecosystems Conserved,” which was approved in April 2005. In June 2006, the Natural
Resource Program Manager for the USAID Regional Program Implementation Office in
Botswana conducted a review of the Env/RD Program’s PMP. He worked with the SO6 team
to improve the definition of the indicators to further improve the monitoring and reporting
requirements for the biodiversity earmark.

There were then various decisions that took place which affected the original PMP that
included: (1) implementation of the new Foreign Assistance Framework in Aug 2006; 2) State/F
requirement that Operating Units beginning in FY07 report against common global level
performance indicators established within the context of the new Foreign Assistance
Framework; (3) submission of Performance and Accountability Report (PAR) and the
Program Assessment Rating Tool (PART) within the Annual Report application; and (4)
integration of the PL 480 Title II Food Security program into the Env/RD program in early 2007.
Consequently, the Env/RD strategic framework was informally revised and a complementary
revised PMP was drafted in July 2007. Given the proximity to a performance audit of the
Env/RD program during the first quarter of FY08, it was decided that finalization of the PMP
would be postponed until after the audit completion so that audit recommendations could be
considered in its finalization.

Corrective actions planned or taken: On February 8, 2008, an e-mail was sent to all Env/RD
partners requiring them to update their PMP by April 1, 2008 including the Operational Plan
(OP) indicators and to report all relevant data that correspond to the OP indicators for the
Program Areas (Environment and Agriculture). The Env/RD team is simultaneously proceeding
with the update of the PMP. This includes the following tasks: (1) finalize the revision of the
Env/RD strategic framework; (2) update the calendar of performance management tasks; (3)
update the OP and program indicators table to include baseline values, targeted and actual
values; (4) update the table on threat analysis; and (5) complete the performance indicator
reference sheets, clarifying the data source, method of data collection, timing of data collection,
and description of known data limitations. The revised PMP should be finalized and ready for
review by mid April 2008.

Recommendation No. 2: We recommend that USAID/Madagascar complete the data quality
assessments for the operational plan indicators for its environment and rural development
strategic objective projects.

USAID/Madagascar response: The mission fully agrees with the recommendation.

Corrective actions planned or taken: The Data Quality Assessment (DQA) forms have already
been drafted by secondary sources. In order to complete the DQA, the Env/RD team will: (1)
review the DQA information to ensure it is of reasonable quality based on the five data quality
standards; (2) review the data collection, maintenance and processing methodology in the
forms; and (3) set up a system plan, inclusive of implementing partners, to verify the process of
analysis from raw data collection through reporting data. This should be completed by mid April
2008.

Recommendation No. 3: We recommend that USAID/Madagascar (a) re-calculate the actual


                                                                                                16
fiscal year 2007 operational plan data reported by its environment and rural development
strategic objective team; and (b) take measures to restate these amounts in the operational plan
database.

USAID/Madagascar response: The mission fully agrees with the recommendation.

Corrective actions planned or taken: As stated above, the Env/RD team met with its partners to
discuss all relevant OP indicators for the Env/RD program. We should receive all updated data
with supporting documentation by mid March 2008. The Env/RD will recalculate and update the
data in the OP and/or Performance Report database. This timeframe is within the OP FY08
preparation when the database is open; therefore this action should be completed by mid-April
08.

Recommendation No. 4: We recommend that USAID/Madagascar’s environment and rural
development strategic objective team (a) establish procedures requiring verification of the
operational database at the source level, and (b) provide training on data collection and
verification methods for the environment and rural development strategic objective team
monitoring and evaluation staff.

USAID/Madagascar Response: The Env/RD team was fully aware of the need to verify the
accuracy of the data reported for its indicators. Procedures were put in place to document the
accuracy of the information that was received by the implementing partners; however, the
auditors highlighted to the SO6 team that some of these procedures were not adequate enough
to verify data at the source level. We would like to provide two examples of the complexity and
challenges in verifying data at this level.

For example, it was presumed that verification of the hectares of new protected areas by a
Government-issued decree was sufficient as verification at the source level. Rather, the
auditors indicated to us that this information needs to be verified by cross referencing
geographical coordinates in relation to the actual number of hectares that was reported in the
decree. It should be noted that USAID will need to work closely with the Government of
Madagascar and the protected area promoters in the verification of this data at the source level.
As USAID is not directly involved in implementation, we will be required to request access to the
partner’s database to verify the relevant source-level data.

Another example is that it was presumed that source-level verification of the number of hectares
under improved natural resources management was sufficient through the review of data
provided in the applicable Government-issued forest harvesting permit. In this case, our
implementing partners are fully involved in the implementation process of this indicator, through
assistance in inventories, delimitation, management plans, bidding documents, tenders and
tracking of management. Therefore, the source-level data for this indicator, including such
documents as the inventory report and other study reports used by our implementing partners,
can be reviewed to ensure accuracy and consistency of the reported indicator data.

Corrective actions planned or taken: It should be noted that all Env/RD data come from
secondary sources (implementing partners and/or other sources). Most of this information can
be verified at the source level. As such, the Env/RD office will set up a formal procedure to
verify maximum data at the source level, such as comparison of data between central offices
and field sites by end of April 2008. In addition, a workshop to train Madagascar’s staff on data
collection and verification methods is planned for May/June 2008.



                                                                                              17
Recommendation No. 5: We recommend that USAID/Madagascar inform its responsible
mission staff and all of its partners of USAID’s branding requirements, and implement a plan to
verify partner compliance with those requirements.

USAID/Madagascar response: The mission fully agrees with the recommendation.

Corrective actions planned or taken: Out of our ten Implementing Partners, all of them have
submitted its branding and marking plan except the Jariala Program being implemented by
International Resources Group (IRG). The deadline for submission was set for mid-March
2008.     It was also agreed that the Env/RD staff would include the verification of the
implementation of this requirement as a standard part of each field visit. Checklists for
conducting field are now being revised accordingly.




                                                                                            18
                                                                                                  APPENDIX III


                                           Reviewed Results

The following are the results of our audit and details of USAID/Madagascar’s
achievement of the five fiscal year 2007 operational plan results 8 reviewed:


                                                                                                    Percentage
                     Outputs                                        Target        Achieved           Achieved
 Number of hectares in areas of biological
 significance under improved management as a
 result of USAID assistance (noncumulative)                        724,423           766,508                106%
 Number of policies, laws, agreements, or
 regulations promoting sustainable natural
 resource management and conservation that
 are implemented as a result of USAID
 assistance                                                               51                 92             180%
 Number of people receiving training in natural
 resources management and/or biodiversity
 conservation as a result of USAID assistance                            105               127              121%
 Number of hectares under improved natural
 resource management as a result of USAID
 assistance (noncumulative)                                          34,255                134               0.4%
 Number of hectares in areas of biological
 significance showing improved biophysical
 conditions as a result of USAID assistance
                                                                   332,536           219,965                  66%




 8
  Although the outputs in the fiscal year 2007 operational plan cite “U.S. Government assistance”, USAID/Madagascar
 has indicated that the term “U.S. Government assistance” actually only refers to USAID.



                                                                                                             19
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
